     May 15, 2006




Financial Management

Vendor Pay Disbursement Cycle, Air
Force General Fund:
Funds Control
(D-2006-085)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ACRN                  Accounting Classification Reference Number
ACO                   Administrative Contracting Officer
ANG                   Air National Guard
CLIN                  Contract Line Item Number
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
JFMIP                 Joint Financial Management Improvement Program
O&M                   Operations and Maintenance
PCIE                  President’s Council on Integrity and Efficiency
PGI                   Procedures, Guidance, and Information
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704



                                                                             May 15,2006
MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
SUBJECT: Report on Vendor Pay Disbursement Cycle, Air Force General Fund:
         Funds Control (Report No. D-2006-085)

        We are providing this report for review and comment. This report discusses
internal control weaknesses in the processing of vendor payments.
       Management did not provide comments to the draft report. DoD Directive 7650.3
requires that all recommendations be resolved promptly. Therefore, we request
comments by July 14,2006.
         If possible, please send management comments in electronic format (Adobe
 Acrobat file only) to Aud-DFS@dodig.mil. Copies of the management comments must
 contain the actual signature of the authorizing official. We cannot accept the / Signed /
.symbol in place of the actual signature. If you arrange to send classified comments
 electronically, they must be sent over the SECRET Internet Protocol Router Network
 (SIPRNET).
        Management comments should indicate concurrence or nonconcurrence with each
applicable finding and recommendation. Comments should describe actions taken or
planned in response to agreed-upon recommendations and provide the completion dates
of the actions. State specific reasons for any nonconcurrence and propose alternative
actions, if appropriate.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Marvin L. Peek at (703) 325-5777 (DSN 221-5777) or Mr. John W. Barklage at
(303) 676-3298 (DSN 676-3298). See Appendix C for the report distribution. The team
members are listed inside the back cover.
                                By direction of the Deputy Inspector General for Auditing:



                                          Paul u ~ r a n e t t oCPA
                                                                ,
                                        Assistant Inspector General
                                        Defense Financial Auditing
                                                  Service
                Department of Defense Office of Inspector General
Report No. D-2006-085                                                         May 15, 2006
   (Project No. D2004-D000FD-0040.001)

        Vendor Pay Disbursement Cycle, Air Force General Fund:
                           Funds Control

                                 Executive Summary

Who Should Read This Report and Why? Air Force contracting officers, resource
managers, fund holders, and officials who accept performance on contracts should read
this report. This report discusses the need to improve internal control over the obligation
and use of funds in accordance with laws and regulations.

Background. Management is responsible for establishing and maintaining internal
control to ensure effective and efficient operations, reliable financial reporting, and
compliance with laws and regulations. The Inspector General Act of 1978, as amended,
provides for the independent review of agency programs and operations in accordance
with generally accepted government auditing standards which require audit to report on
internal controls and compliance with laws and regulations. Such a review of the vendor
pay disbursement cycle spans the acquisition; funding; delivery, receipt, and acceptance;
payment; and recording of the financial transactions in the official accounting records.
This is the second in a series of five reports on internal control of the Air Force General
Fund vendor pay disbursement cycle. This report identifies the weaknesses in internal
control for maintaining effective fund control over the appropriations used in the
purchase of goods and services in compliance with laws and regulations.

Results. Internal control was not effective to ensure monitoring and corrective actions
were taken when funds were improperly used.

Air Force personnel did not effectively monitor and take corrective action when Defense
Finance and Accounting Service personnel used incorrect funds to pay for goods and
services delivered against 7 of the 45 contracting actions examined. The use of incorrect
lines of accounting resulted in improper payments. Consequently, the risk is high that
Air Force contract payments are charged to incorrect appropriations, unliquidated
balances are not returned to the rightful fund holders, and cost overruns may go
undetected (finding A).
Air Force personnel did not effectively monitor and follow up on unliquidated
obligations. Fund holders did not take appropriate action to follow up on the status of
unliquidated obligations for 11 of the 45 contracting actions examined. Funds either
were not available to pay for goods when delivered and for services when performed, or
were in excess of the contract requirements. As a result, the risk is high that a significant
amount of invalid obligations is present in the Air Force accounting records (finding B).

Management Comments. Management comments were not received in response to the
draft report issued February 2, 2006. We request that the Assistant Secretary of the Air
Force (Financial Management and Comptroller) and Assistant Secretary of the Air Force
(Acquisition) comment on this report by July 14, 2006.


                                              i
Table of Contents

Executive Summary                                  i

Background                                         1

Objectives                                         2

Findings
     A. Charging Appropriations                    3
     B. Unliquidated Obligations                  11

Appendixes
     A. Scope and Methodology                     16
     B. Contracting Actions Selected for Review   18
     C. Report Distribution                       21
Background
          Management is responsible for establishing and maintaining internal control to
          ensure effective and efficient operations, reliable financial reporting, and
          compliance with laws and regulations. The Inspector General Act of 1978, as
          amended, provides for the independent review of agency programs and operations
          in accordance with generally accepted government auditing standards which
          require audit to report on internal controls and compliance with laws and
          regulations. Such a review of the vendor pay disbursement cycle spans the
          acquisition; funding; delivery, receipt, and acceptance; payment, and recording of
          the financial transactions in the official accounting records.

          Three types of internal controls exist: compliance, operations, and financial
          reporting. In this audit, we conducted a series of control sample tests related to
          the three types of internal controls as presented in the Government Accountability
          Office (GAO) and President’s Council on Integrity and Efficiency (PCIE)
          Financial Audit Manual. In accordance with the GAO/PCIE guidelines, 1 we
          randomly selected 45 contracting actions (which included funding modifications)
          for a comprehensive examination of:

               •   the nature and funding of the contracts;

               •   delivery, receipt and acceptance;

               •   payment; and

               •   financial recording of the related budgetary and proprietary transactions in
                   the official accounting records.

          In a sample of 45 items, one defect indicates that the risk is high that the relevant
          internal control is not effective. Depending on the type and nature of the internal
          control deviation, the internal control defect might be significant as a separate
          finding or treated as one of a homogeneous group of like errors and related
          causes.

          Contracts for goods and services often include line items that are funded by
          different appropriations. Each line item has its own line of accounting to
          document the specific appropriation obligated to pay for the goods and services.

          This is the second in a series of five audit reports on the effectiveness of internal
          control related to the Air Force General Fund vendor pay disbursement cycle.
          This report examines the effectiveness of the compliance controls that ensure that
          the correct lines of accounting are used in paying contracts.

          The first report in this series, “Report on Vendor Pay Disbursement Cycle, Air
          Force General Fund: Contract Formation and Funding” (D-2006-056),

1
    GAO/PCIE Financial Audit Manual, section 400, figure 450.1, “Sample Sizes and Acceptable Numbers
    of Deviations,” July 2001.



                                                   1
    March 6, 2006, covered the internal control related to contract formation and
    followup, with the focus on the contracting officer’s role and responsibility. The
    third and fourth reports in this series will cover the system of internal control
    related to vendor pay and core financial system reporting. A fifth report, which
    we will issue to summarize the internal control weaknesses, will assist the reader
    to understand how all personnel have a role in strengthening the financial
    management and reporting process.


Objectives
    Our overall audit objective was to assess internal controls and compliance with
    laws and regulations pertaining to the vendor pay disbursement cycle in the Air
    Force General Fund and supported activities. See Appendix A for a discussion on
    the scope and methodology and Appendix B for a complete list of the
    45 contracting actions randomly selected for examination.




                                         2
                     A. Charging Appropriations
                     Air Force internal control was not effective to ensure that personnel
                     effectively monitored and took corrective action when Defense Finance
                     and Accounting Service (DFAS) personnel used incorrect funds to pay for
                     goods and services in 7 of the 45 contracting actions examined. DFAS
                     personnel did not always use the correct line of accounting because of
                     improper payment instructions in contracts, unclear vendor billing
                     practices, and inadequate followup to identify lines of accounting that
                     remained in undelivered status after goods or services were received. In
                     addition, contracting officers sometimes wrote contracts with multiple
                     accounting lines that were not traceable to a specific deliverable.
                     Consequently, the risk is high that Air Force contract payments are
                     charged to incorrect lines of accounting, unliquidated balances are not
                     returned to the rightful fund holders, and that line item cost overruns may
                     go undetected.


Background and Critical Guidance
           In a system of internal control, contracting officers and specialists, Air Force
           customers, resource managers, fund holders, and other officials have distinct
           responsibilities. According to section 2773a, title 10, United States Code,
           “Departmental Accountable Officials,” and DoD Directive 7000.15, “DoD
           Departmental Accountable Officials and Certifying Officers,” March 19, 2005,
           personnel 2 appointed as accountable officials may be held pecuniary liable for
           any illegal, improper, or erroneous payments made when DFAS personnel relied
           on the data, information, or services of the accountable officials to certify
           vouchers for payment.

           When contracting officers write contracts with multiple accounting lines that
           personnel cannot trace through the official accounting records to the delivery and
           receipt of the specific deliverable, potential cost overruns at the line item level
           may go undetected. Personnel would not detect the overrun until later when the
           funding shortfall is exposed through the inadequate funding of the other line items
           delivered later in the performance or delivery period.

           Finally, operating personnel may violate appropriation law in the use of their
           funds. Appropriation law statutes potentially violated include 31 U.S.C. 1502
           (bona fide need) and 10 U.S.C. 2410a (severable services).

           Federal Acquisition Regulation. The Federal Acquisition Regulation (FAR),
           Subpart 4.10 and 4.1001 provides the following description of the contract line
           item number (CLIN):
                     Contracts may identify the items or services to be acquired as
                     separately identified line items. Contract line items should provide unit

2
    Disbursing officers and certifying officials.



                                                        3
                 prices or lump sum prices for separately identifiable contract
                 deliverables, and associated delivery schedules or performance periods.
                 Line items may be further subdivided or stratified for administrative
                 purposes (e.g., to provide for traceable accounting classification
                 citations).

        Defense Federal Acquisition Regulation Supplement. The Defense Federal
        Acquisition Regulation Supplement (DFARS), Procedures, Guidance, and
        Information (PGI) states an accounting classification reference number (ACRN)
        related to payment instructions must provide adequate instructions to charge the
        ACRNs assigned to the contract line item in a manner that reflects the
        performance of work on the contract.

        The DFARS PGI also states that payment instructions must provide a
        methodology for the paying office to assign payments to the appropriate
        accounting classification citation(s), based on anticipated contract work
        performance. The method established should be consistent with the reasons for
        the establishment of the line items. The payment method may be based upon a
        unique distribution profile devised to reflect how the funds represented by each of
        the accounting classification citations support contract performance. Payment
        methods that direct that payments be made from the earliest available fiscal year
        funding sources or that prorate across accounting classification citations assigned
        to the line item, or a combination of the two, may be used if that methodology
        reasonably reflects how each of the accounting classification citations supports
        contract performance.

        Departmental Accountable Officials. According to 10 U.S.C. 2773a,
        accountable officials are those who are responsible for providing DoD certifying
        officials information, data, or services that are directly relied upon to certify a
        voucher for payment. Personnel who are designated by certifying officers as
        accountable officials 3 in accordance with DoD Directive 7000.15 may be held
        pecuniarily liable for any improper, illegal, or erroneous payments that results
        from a certifying officer who relied on provided data, information, or service.

        DoD Financial Management Regulation (FMR). DoD FMR, volume 10,
        chapter 1 provides the following procedures related to the payment:
                 No payment is made without evidence of a liability and a determination
                 of entitlement. The nature and extent of procedures vary for financing
                 and invoice payments. Entitlement to financing payments shall be
                 determined by contract terms and conditions, including any required
                 approvals by contracting officers, contract administrators, or contract
                 auditors. Entitlement to invoice payments shall include, as applicable,
                 additional determinations such as proof of receipt and acceptance,
                 receipt of a proper invoice, and verification of all computations.




3
 In April of 2005, volume 5, chapter 33, of the FMR changed so that Agency Heads (or their designees)
must designate accountable officials.



                                                   4
           In addition, DoD FMR, volume 5, chapter 33, acknowledges that contracting
           officers, receiving officials, and fund holders are accountable officials.
           Contracting officers are responsible for providing timely and accurate contract
           data, for example, payee’s name, line of accounting, any assignment of claims
           actions and remittance address. Receiving officials (those who are the recipients
           of the goods and services) are responsible for providing timely and accurate
           receipt data, such as quantity and receipt date. Resource managers and fund
           holders are responsible for the proper assignment of funding on an obligation
           document before the obligation is incurred and for maintaining a system of
           positive funds control.

           Joint Financial Management Improvement Program (JFMIP). According to
           JFMIP guidance, 4 an agency’s single integrated financial management system
           must support pre-audit verification of invoices prior to payment. Pre-audit
           verification includes providing evidence of the receipt, acceptance, and payment
           matched to funding source(s) in accordance with the contract. The JFMIP
           document also requires that the system provide process controls that match the
           “description of items and services, quantity, and price on the invoice” with “the
           same elements in the contract to ensure that the correct contract/order number has
           been cited by the vendor, the correct obligation charged, and only contracted
           items/services and quantities are paid for.”


Mismatched Lines of Accounting
           For 7 5 of the 45 contracting actions examined, DFAS personnel paid invoices
           from an incorrect line of accounting for the items ordered on the contracts. The
           following five contracting actions are provided as examples.

                •   An Air Force contracting officer executed a delivery order for research,
                    development, test, and evaluation services that did not properly assign the
                    lines of accounting in a manner that reflected the performance of work on
                    the contract. 6 Initially, the vendor’s performance was assigned by project.
                    However, funding modifications to the order resulted in a loss of identity
                    to the initial projects and to the periods of performance that applied to
                    severable services 7 in the order. In response to our questions, the
                    contracting officer stated:

                         We recognize that the nature of this contract did not provide for
                         tracking of costs directly related to subCLIN line items (tasks).
                         Because DFAS made payments by ACRN, as specified in the
                         contract, DFAS payments were not aligned directly with contractor

4
    Federal Financial Management Systems Requirements, “Acquisition/Financial Systems Interface
    Requirements,” June 2002.
5
    Sample numbers 4, 12, 17, 25, 26, 31, and 50.
6
    Sample 4; contract F41624-97-D-6004, delivery order 0032.
7
    Section 2410a, title 10, United States Code. Also see the first report in this series, “Contract Formation
     and Funding,” finding A and Appendix C.


                                                        5
                        work supporting each modification. Since the contract did not
                        provide for tracking the cost of individual tasks and DFAS paid
                        invoices from funds in the order they were listed in Section G of
                        the delivery order, payments were made without regard to what
                        actual work was done during the invoice period.

                     The contracting officer and receiving officials did not provide adequate
                     information to support vendor payments to ensure the payments were
                     charged to the correct line of accounting. For example, we could not
                     determine the actual cost, when the work was completed, or when the
                     vendor was paid, for the five projects established and funded by the
                     September 26, 2001, delivery order. Although those projects were
                     referenced by job order number in the contract, they could not be traced to
                     either the vendor pay or official accounting records.

               •     An Air Force project officer and fund holder did not effectively follow up
                     with Comptroller or DFAS personnel after the vendor was paid from lines
                     of accounting not established to pay for the services. 8 Followup was
                     warranted because the project was completed and invoiced in full as of
                     October 24, 2003, and the line of accounting should have been expended
                     as of that date. However, DFAS personnel used the unliquidated balance
                     of pre-existing lines of accounting to pay the vendor for other services,
                     and later used the unliquidated balance of the line of accounting under
                     review to pay the vendor for services rendered through April 23, 2004. In
                     this case, the project officer was responsible for performing inspections
                     and accepting services and delivered items. The fund holder was
                     responsible for maintaining a system of positive fund control. Neither the
                     project officer nor the fund holder appeared to have followed up on these
                     responsibilities when we concluded our tests. 9

               •     Neither the Administrative Contracting Officer (ACO) nor Air Force Air
                     National Guard (ANG) personnel provided timely followup after DFAS
                     personnel used an accounting line other than the Air Force ANG line of
                     accounting to pay a vendor for services. 10 In this case, the ACO approved
                     a vendor billing for $71,108.54 in cost incurred against the Air Force
                     ANG contract line item. However, on July 7, 2003, DFAS personnel used
                     only $54,817.58 of the Air Force ANG accounting line to pay the vendor,
                     paying the remaining $16,290.96 from other lines. As of June 30, 2004,
                     the end of our field work, DFAS had adjusted only $11.69 to the ANG
                     funds. On September 22, 2004, the ACO requested another adjustment of
                     $15,672.43 to the ANG funds. As a result, $606.84 remains charged
                     against another line of accounting. We were unable to determine why the
                     full amount was not charged against the Air Force ANG contract line item.
               •     An Air Force maintenance engineer and fund holder did not effectively
                     follow up with the funding of a services contract to ensure sufficient funds

8
    Sample number 12, F29601-97-C-0115, P00065, job order number 3151LR03 and task order 12.
9
    June 30, 2004.
10
     Sample number 25, F34601-97-C-0032, P00126, payment voucher BVN0091.



                                                     6
                     were obligated to pay for the services rendered. 11 In an option contract,
                     each option may be separately identified by a series of line items and lines
                     of accounting. However, neither the engineer nor the fund holder
                     followed up on what was billed year-to-date to ensure that adequate funds
                     were obligated to cover the cost of services during the first and second
                     option years. Consequently, when funds for option year-1 were not
                     sufficient to cover the final option year-1 invoice, DFAS personnel
                     erroneously paid the vendor using the funds obligated to pay for option
                     year-2 services. DFAS personnel then used the remaining option year-1
                     funds to partially pay for the first month of the option year-2 services.

                 •   An Air Force resource manager and fund holder did not effectively follow
                     up after an acquisition manager approved an invoice for payment that
                     spanned the initial and extended period of performance. 12 While each
                     year’s contract was separately funded, DFAS personnel used the
                     unliquidated balance of the prior year FY 2002 operations and
                     maintenance (O&M) funds to pay the invoice in full. DFAS personnel’s
                     use of the FY 2002 O&M line of accounting violated the bona fide need
                     rule since the services rendered in the subsequent period were not a bona
                     fide need of the FY 2002 appropriation. The vendor period of
                     performance that related to the extended period should have been prorated
                     and paid from the FY 2003 O&M funds that were obligated to pay for the
                     services. Base personnel acknowledged the violation after we questioned
                     the payment.


Funds Control – A System of Internal Control
            Air Force personnel, including contracting officers, receiving officials, resource
            managers, and fund holders, have roles and responsibilities in minimizing the
            opportunity for erroneous payments and to execute procedural safeguards
            affecting proposed payments. DFAS personnel, when certifying vendor payments
            and accounting for transactions, rely on the written contract, appropriate invoice
            approvals, 13 receipt and acceptance documents, and followup to ensure that
            vendor payments are properly and accurately paid and that related budgetary and
            proprietary transactions are accounted for in the official accounting records. In
            the previous section, we provided four examples where internal control was not
            effective. The following explains why they were not effective.

            Contracting officers, through the improper formation and structuring of the
            contract line items and lines of accounting, risked violating appropriation laws
            when multiple lines of accounting with fixed year appropriations were cited on
            the contract and the contracting officer included payment instructions that DFAS
            personnel use the earliest funds to pay vendors. In response to our question about

11
     Sample number 31, F42650-02-C-0024, P00013.
12
     Sample number 50, contract GS35F4415G, order number F41691-02-F-0653.
13
     If the contract designates a billing office other than the paying office, that activity or organization is first
     to receive the invoice for review prior to forwarding to the paying office.



                                                           7
    the structuring of a delivery order on sample number 4, a contracting officer
    acknowledged that payments were made without regard to what actual work was
    done during the invoice period. The contracting officer stated:
           This could be corrected by issuing a delivery order for each of the
           discrete tasks and determining for each task severability or non-
           severability, bona fide need, and limit funding to one line of accounting
           per contract line item or subCLIN at the lowest level for each. Or,
           establishing subCLINs for each discrete task with the corresponding
           ACRN assigned and having one basic CLIN for general service support
           with funding instruction to DFAS to pay invoice presented for CLIN
           general service support only. The contractor must then be required to
           establish separate work orders for each task and submit monthly
           invoices with the costs incurred against each task listed separately and
           the corresponding ACRN cited. This tracking mechanism would
           ensure that contract structure establishes strong financial discipline and
           integrity of delivery line.

    In addition, contracts should clearly state that invoices are prepared and billed by
    contract line item for accurate application against the line of accounting for the
    period of performance for which the goods or services were a bona fide need. In
    the case of sample number 4, the Senior Contract Administrator for the company
    stated, regarding the preparation of invoices, that “we had no contractual or
    customer requirements to track costs to the subCLIN or task level.”

    We found no evidence that personnel who accepted the goods and services, such
    as the project officer (sample number 12) and maintenance engineer (sample
    number 31) and who approved the invoice for payment, such as the ACO (sample
    numbers 25, 50), coordinated with their contracting officers, resource managers,
    and fund holders to ensure the correct line of accounting was used to pay for
    goods or services. We also did not find any indication that resource managers or
    fund holders examined the status of funds on the contracts to effect corrective
    action.


Conclusion
    An effective system of internal control over payments to vendors requires
    coordination between Air Force contracting officers, receiving officials, resource
    managers, and fund holders. In our opinion, systems of internal control are
    effective when personnel are accountable in their roles and responsibilities.
    Contracting officers must form and structure contracts to provide maximum
    visibility and traceability between the contract line items, lines of accounting, and
    periods of performance. Receiving officials must coordinate the receipt and
    acceptance of goods and services with DFAS personnel, the contracting officer,
    resource managers and fund holders. Resource managers and the fund holders
    must follow up on recording transactions to ensure that their lines of accounting
    are correctly identified to appropriately pay for the items delivered. These
    controls, and the acknowledged accountability of personnel over those controls,
    are necessary to establish strong financial discipline and integrity of the delivery
    line. In the absence of such internal control, vendors may be improperly,


                                               8
    illegally, or erroneously paid resulting in the pecuniary liability of personnel. In
    addition, cost overruns or funding shortfalls may go undetected and appropriation
    law may be violated where a bona fide need did not exist based upon the date the
    goods or services were ultimately delivered.


Recommendations
    A.1. We recommend that the Assistant Secretary of the Air Force (Financial
    Management and Comptroller) revise existing Air Force regulations and
    procedures to strengthen the system of internal control related to the duties and
    responsibilities of receiving personnel, resource managers, and fund holders who
    oversee the status of funds. The strengthening of the internal control structure
    should include:

            a. Clarifying DoD policies that describe the duties and responsibilities of
    Air Force personnel, including the contracting officer, receiving personnel,
    resource managers, and fund holders, in maintaining an effective system of
    internal control.

           b. Reviewing and clarifying procedures for contracting officers, receiving
    personnel, resource managers, and fund holders as part of the FY 2006
    implementation of the Office of Management and Budget, Circular A-123,
    “Management’s Responsibility for Internal Control,” December 21, 2004.

    A.2. We recommend that the Assistant Secretary of the Air Force (Acquisition)
    direct applicable commands and installations to:

            a. Require all contracting office personnel to receive training in the
    proper formation and structuring of contract line items, lines of accounting, and
    periods of performance to provide maximum visibility of the items ordered and
    the lines of accounting obligated to pay for the deliverables.
            b. Require that contracting office personnel verify that the vendor
    payment instructions are followed, and that invoices clearly delineate the cost to
    the respective contract line items.

           c. Establish effective controls to comply with the DoD policy and FAR
    and DFARS requirements discussed in the criteria section of this report in the
    formation, structuring and execution of contracts.

           d. Establish guidelines that require financial managers, resource advisors,
    and fund holders to follow up on the deliveries and payments made where
    multiple contract lines, lines of accounting, and performance periods are on
    contract.




                                         9
Management Comments Required
    The Air Force did not comment on a draft of this report. We request that the Air
    Force provide comments on the final report.




                                       10
           B. Unliquidated Obligations
           Air Force personnel did not effectively monitor and follow up on
           unliquidated obligations. DoD policy requires fund holders to review
           unliquidated obligations at the end of January, May, and September of
           each year. While these triannual reviews are subject to a dollar threshold
           for each appropriation, an annual review of all unliquidated obligations is
           required, regardless of the dollar amount. Fund holders did not effectively
           review the unliquidated balances of 11 of the 45 contracting actions
           examined. These unliquidated obligations were invalid because goods and
           services had not been delivered, or the amounts obligated exceeded the
           period of performance and were no longer a bona fide need of that period.
           Unliquidated obligations were not effectively monitored because DoD
           policy did not clearly identify the actions fund holders should take to
           review and coordinate with contracting officers, comptroller or fiscal
           officers, and customers on the cause of the unliquidated balances. Fund
           holders need to monitor and follow up when deliveries are not made as
           scheduled, unliquidated balances remain after performance is complete, or
           the performance period in which the funds meet a bona fide need of the
           period is passed. On the 11 contracting actions, 13 lines of accounting
           had partial or no deliveries reported during the period the funds were
           available for obligation under the bona fide need rule. As a result, the risk
           is high that a significant amount of invalid unliquidated obligations is
           present in the Air Force accounting records. As long as the unliquidated
           obligations remain in the accounting records, fund holders lose the
           opportunity to use the funds to meet other requirements if the contract was
           completed. If not completed, DFAS personnel are apt to use those funds
           to pay vendors for performance in subsequent periods in violation of
           appropriation law.


Critical Guidance
    DoD Financial Management Regulation (FMR). DoD FMR, volume 3,
    chapter 8, requires fund holders to review obligations for timeliness, accuracy,
    and completeness during the periods ending January, May, and September. Fund
    holders are required to review all unliquidated balances at least once each fiscal
    year. Fund holders are DoD officials that receive a documented administrative
    subdivision of funds including apportionments, allocations, suballocations,
    allotments and suballotments through their funding channels or from other
    government departments, agencies and activities holding an administrative
    subdivision of funds. Consequently, fund holders are given the responsibility to
    conduct the triannual and annual reviews because they initiated the actions that
    resulted in the obligations, and, therefore, are in the best position to determine the
    accuracy and status of the transactions. When necessary, fund holders are
    required to request assistance from the accounting offices. Accounting personnel
    are required to provide listings or automated media to enable the fund holders to
    verify the balances shown in the proprietary and budgetary accounts, thus
    ensuring that the account balances are valid, accurate, and reconciled.



                                          11
Unliquidated Obligations, Undelivered Orders

        We identified 11 14 of 45 contracting actions where invalid unliquidated
        obligations existed because goods and services had not been delivered, or the
        amounts obligated exceeded the period of performance and were no longer a bona
        fide need of that period. The following four contracting actions are provided as
        examples.

            •   An Air Force military family housing O&M obligation for minor
                construction expired and was no longer a bona fide need of the period the
                funds were available for obligation. We believe the FY 2003 O&M funds
                were improperly used, and FY 2004 O&M funds should have been used
                after base personnel were unable to provide physical evidence that either
                work had started or costs were incurred to justify the construction as a
                bona fide need of FY 2003. 15 The fund holder, working in conjunction
                with the contracting officer, should have taken corrective action to either
                ensure that work started or, if termination for default was warranted,
                issued a replacement contract. As a result, $117,991 was improperly
                expended because the project was not a bona fide need of the period. In
                addition, the unliquidated balance of $24,167 (as of June 30, 2004) could
                not be used to complete the project.

            •   Air Force O&M funds, obligated for a services contract on five accounting
                lines, had unliquidated balances as of the end of the period of
                performance. However, instead of de-obligating the funds on these
                accounting lines, the contracting officer carried forward the unliquidated
                balances to pay for the next option year based on the belief the contract
                was for nonseverable services. 16 The contracting officer’s action violated
                10 U.S.C. 2410a, “Contracting for Severable Services.” To effectively
                perform a triannual and annual review and identify possible violations of
                laws and regulations, fund holders must understand the terms of contracts
                on which their funds are obligated. The defined roles and responsibilities
                of the contracting officer, fund holder, and customer in the receipt and
                acceptance of the goods or services form a segregation of duties that
                extend from the initial execution of a contract to its administration. As a
                result, over $2.8 million in FY 2003 O&M funds was reported as an
                unliquidated obligation at the end of the performance period and required
                A contracting officer, de-obligation.
            •   An Air Force O&M obligation for non-warranty support and repair
                expired on January 1, 2004, without any Air Force cost incurred for the
                support and repair action. 17 The contracting officer had set the periods of
                performance for the two contract line items through November 30, 2003,
                and December 31, 2003, respectively. In this case, the contracting officer

14
   Sample numbers 2, 7, 11, 19, 20, 22, 33, 35, 36, 46, and 54.
15
   See Sample number 11; contract number F62321-00-D-0007, delivery order 5130.
16
   See Sample number 19; contract number F42600-01-D-0027, delivery order 0003.
17
   See Sample number 20; contract number F08635-03-D-0007, delivery order 0003.


                                                12
                   had to de-obligate $184,000 of FY 2003 O&M funds that had expired after
                   determining the Air Force installations that possessed the assets had not
                   forwarded them to the vendor for the non-warranty support and repair
                   action. The fund holder, working with the inventory management
                   specialist who requested the funding, should have taken action to prompt
                   the installations to send the assets to the vendor. Because the fund holder
                   did not take this action, $184,000 of FY 2003 funds that could have been
                   used by the Air Force was allowed to expire.

               •   An Air Force O&M obligation for purchasing mobility equipment expired
                   and had to be de-obligated when the vendor failed to deliver the
                   equipment in accordance with the delivery schedule in the contract. Base
                   personnel subsequently de-obligated the FY 2003 O&M funds because the
                   funds were not proven to be a bona fide need of that year. 18 When
                   following up with the contracting officer, customer, and program
                   manager, the fund holder should have taken action to de-obligate the FY
                   2003 O&M funds and to modify the contract, using the FY 2004 O&M
                   appropriation to fund the purchase. The fund holder’s coordination with
                   the contracting officer indicated that a binding agreement was not in
                   place; therefore the use of the FY 2003 funds would have been in violation
                   of law. As a result, the contracting officer had to de-obligate $206,530 of
                   FY 2003 O&M funds that had expired and were no longer available for
                   other needs of the base.


Fund Holder Actions
           The DoD FMR does not provide clear instructions on fund holder responsibilities
           for the review and followup of triannual and annual reviews of unliquidated
           obligations. We did not find evidence that fund holders initiated contact with
           contracting officers and customers to follow up when deliveries were past due or
           when unliquidated balances existed at the end of the contract periods of
           performance. On the 11 contracting actions, 13 lines of accounting had partial or
           no deliveries reported during the period the funds were available for obligation
           under the bona fide need rule. While the DoD FMR 19 requires fund holders to
           determine that the unliquidated balance is valid during the triannual and annual
           reviews performed each year, improvements could be made in the instructions for
           orders that are not delivered or for balances remaining at the end of the contract
           periods of performance.

Conclusion
           As part of a system of internal control, fund holder triannual and annual reviews
           are critical in reviewing and following up with contracting officers, comptroller or
           fiscal officers, and customers if the cause for an unliquidated balance is to be

18
     See sample number 35, contract number GS06F0007J, order number F61521-03-F-A494.
19
     DoD FMR, volume 3, chapter 8, paragraph 080403.



                                                  13
    identified and corrective action is necessary. That followup could identify
    instances where: (1) timely corrective actions (for example, termination for
    default and issuance of a replacement contract) could preserve the original use of
    the funds (sample number 11); (2) appropriations originally cited were ultimately
    not valid as a bona fide need of the original orders (sample number 35);
    (3) unliquidated balances were excessive to the periods of performance, allowing
    for timely deobligation (sample number 19); and (4) Air Force personnel did not
    follow through to ensure they took the necessary action to have the work done
    (sample number 20). A high risk exists that a significant amount of invalid
    unliquidated obligations is present in the Air Force accounting records. If action
    is not taken to de-obligate those balances, DFAS personnel are apt to use the
    funds to pay the vendor in violation of appropriation law.


Recommendations
    B.1. We recommend that the Assistant Secretary of the Air Force (Financial
    Management and Comptroller) review existing Air Force regulations and
    procedures, and strengthen the system of internal control related to conducting
    triannual and annual reviews. The duties and responsibilities of fund holders
    should include:

           a. Reviewing the contract or order so they will know the delivery terms
    and periods of performance that apply to the obligation of the funds.

           b. Reviewing any unliquidated balances related to the undelivered order.

            c. Reviewing unliquidated balances that are potentially excessive to the
    costs expected to be incurred during the period of performance.

           d. Requiring coordination between the comptroller or fiscal officer and
    DFAS personnel to determine whether the goods or services were received but
    were not recorded on the fund holders’ line of accounting in the official
    accounting records.

            e. Requiring coordination between the contracting officer and customers
    to determine the status of the order, and if delivery or performance was not made.

           f. Reviewing and clarifying procedures for the triannual and annual
    reviews as part of the FY 2006 implementation of the Office of Management and
    Budget, Circular A-123, “Management’s Responsibility for Internal Control,”
    December 21, 2004.

    B.2. We recommend that the Assistant Secretary of the Air Force (Acquisition)
    direct the applicable commands and installations to require all contracting office
    personnel and receiving personnel to coordinate with fund holders to determine
    the status of the delivery or performance.




                                        14
Management Comments Required
    The Air Force did not comment on a draft of this report. We request that the Air
    Force provide comments on the final report.




                                       15
Appendix A. Scope and Methodology
   This is the second in a series of reports examining internal control and
   compliance with laws and regulations of the Air Force General Fund vendor pay
   disbursement cycle. In this report, we discuss the outcome of our tests related to
   the Air Force personnel review and followup, and fund holders conduct of the
   triannual and annual reviews of unliquidated balances for the 45 contracting
   actions. We performed internal control tests to determine whether Air Force
   contracting officers, customers who received goods and services, and fund
   holders reviewed and followed up on the deliveries made against the contracts
   and on the lines of accounting that were used to pay for the goods and services.
   Our sample of 45 contracting actions was randomly selected from a universe of
   15,096 items reported during the period July 1, 2003, through September 30,
   2003. The audit test period extended from October 1, 2003, through June 30,
   2004. In a control sample test of 45 items, one deviation represents a high risk
   that internal control is not effective.

   In our examination of the 45 contracting actions (which included funding
   modifications), we examined the contract file documentation for each sample to
   determine the timing, nature, character, and terms and conditions related to the
   action. We also obtained copies of the funding documents for the contracting
   action. Based upon the contract data gathered, we traced the delivery of the
   goods and services through receipt and acceptance by the Government, invoice
   certification, payment, and recognition of the related transactions in the budgetary
   and proprietary general ledger accounts in the official accounting records.

   We performed this audit from January 2004 through November 2005 in
   accordance with generally accepted government auditing standards. Our review
   of the transactions related to the deliveries and payments made against the
   contracting actions during the period October 2003 through June 2004, except for
   those actions that were funding modifications. We reconstructed the funding and
   payment histories on all funding modifications back to the inception of the basic
   order.
   Use of Computer-Processed Data. We relied on data from the Integrated
   Accounts Payable System, Mechanization of Contract Administration Services,
   and Electronic Document Access systems. However, we did not perform a formal
   reliability assessment on these systems. Instead, we compared system data to the
   hardcopy contract and funding documents, invoices, and receiving documents to
   assess data reliability for the lines of accounting charged and payments made
   against the 45 contracting actions selected for audit.

   Use of Technical Assistance. The Office of Legal Counsel, Office of the
   Inspector General, assisted in the review of the legality of the contracting actions
   and funds used to pay vendors identified in this report. In addition, personnel
   from the Quantitative Methods Division, Office of the Inspector General, assisted
   in the development of the statistical analysis presented in this report.




                                        16
    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    addresses issues related to the Defense Financial Management high-risk areas.


Prior Coverage
    No prior coverage has been conducted on the Air Force General Fund vendor pay
    disbursement cycle during the last 5 years.




                                        17
Appendix B. Contracting Actions Selected for
            Review




                       18
19
20
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform


                                          21
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        22
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Marvin L. Peek
John W. Barklage
David M. Barbour
William F. Lanyi
Lam B. Nguyen
Mary K. Reynolds
Kevin M. Roths
Joshua D. Harcharik
Erin Hart
James Hartman
Lusk Penn
